AU99-017 August 1999
Home | Other Reports
Legal Services Corporation
O F F I C E   OF   I N S P E C T O R   G E N E R A L
Review of Case Statistical Reports
Grantee: Legal Action of Wisconsin, Inc.
Recipient No. 550010
Final Report No. AU99-017
August 1999
TABLE OF CONTENTS
EXECUTIVE SUMMARY
BACKGROUND
OBJECTIVES, SCOPE AND METHODOLOGY
RESULTS OF AUDIT
CASE SERVICE REPORTING
Case Service Reporting Requirements
LSC Uses of Grant Activity Report
Automated and Manual Case Management Systems
EXAMINATION OF REPORTED CASES
Closed Cases Overstated
Cases Reported as Closed but Legal Services Not Provided
Incorrectly Closed Cases
Duplicate Cases
Open Cases Incorrectly Reported
OTHER CASE MANAGEMENT ISSUES
CONCLUSIONS
RECOMMENDATIONS
SUMMARY OF GRANTEE COMMENTS AND OIG RESPONSE
APPENDIX I - LISTING OF FINDINGS AND RECOMMENDATIONS
APPENDIX II - GRANTEE'S SUMMARY COMMENTS
EXECUTIVE SUMMARY
The 1997 Grant Activity Report submitted by Legal Action of Wisconsin (grantee) overstated the number of
cases closed during the year by 6 percent.  The grantee reported 6,618 closed cases but only an estimated 6,241 cases
qualified to be reported as closed in 1997. The grantee had an estimated 1,974 cases open at year-end, but reported 2,295
Closed cases were overstated for three reasons.  An estimated 198 cases were reported even though no
legal services were provided.  Legal work on 119 cases was completed in1996, but the cases were reported as closed in 1997.  The late reporting of these cases was the result of a one-time problem at the Madison branch office.  An estimated 60 duplicate cases were reported, i. e., the same case was reported more than once.  Even though the number of erroneously reported closed cases was relatively small, corrective actions are needed to preclude larger problems in the future.
The open case reporting errors occurred because cases that should have been closed remained open at year
end and some duplicate cases were reported. Management needs to improve controls to ensure open cases are correctly
reported in future Grant Activity Reports.
Other case management issues, not directly related to case counting, were also disclosed during our
review.  The grantee's staff could not locate three closed case files.  Legal services were provided to two clients
whose income exceeded LSC limits and to one client whose case was outside the grantee's priorities.  Asset eligibility
documentation was not available for 32 percent of 141 sample cases.
Recommendations to correct the above problems are on page 8.
BACKGROUND
Legal Action of Wisconsin, Inc. (grantee) is a nonprofit Wisconsin corporation organized to provide
representation in civil matters to low income individuals in eleven counties in southeastern Wisconsin and to migrant
farm workers throughout the state. The grantee's main office is in Milwaukee, Wisconsin, and branch offices are located
in Kenosha and Madison.  The grantee employs approximately 24 attorneys and 17 paralegals.  In addition, some clients are
represented by pro bono attorneys who volunteer their services to the Volunteer Lawyers Projects, co-sponsored by
the grantee.  In 1997, the grantee received approximately $3.7 million in total funding to carry out its program.
About 65 percent, or $2.4 million, came from LSC.
LSC requires the grantee to submit an annual Grant Activity Report on key aspects of its workload.
The report includes statistics for basic field services and Private Attorney Involvement programs, including the number
of open and closed cases, types of cases handled, and the reasons for closing cases.  For calendar year 1997, the grantee
reported 6,618 closed cases and 2,295 cases remaining open at year-end.
During 1997, the grantee tracked client cases through a computerized case management database in its
Milwaukee office, and through manual record keeping in its branch offices.
OBJECTIVES, SCOPE, AND METHODOLOGY
The primary objective of this audit was to determine whether the grantee provided LSC with accurate case
statistical data in its 1997 Grant Activity Report.
The Office of the Inspector General (OIG) performed audit fieldwork from July 20 through July 30,1998 at
Legal Action of Wisconsin, Inc.'s main office in Milwaukee and its branch offices in Kenosha and Madison, Wisconsin.
The OIG examined the grantee's 1997 and 1998 grant proposals to LSC; 1996 and 1997 grant activity reports, and the 1997
Program Integrity certification.  The OIG reviewed staff manuals, client intake systems and practices, case processing
and closing procedures, and selected grantee written policies and procedures.  During the on-site visit, the OIG
interviewed, and collected information from, the grantee's executive director, managing attorneys, staff attorneys,
paralegals, intake staff, and other support staff.
The OIG obtained and reviewed the grantee's automated case management system data to determine if the
case statistical data reported to LSC in the 1997 Grant Activity Report was consistent with information in client case
files and in compliance with applicable LSC reporting requirements.  The OIG also reviewed the manual records maintained
by the grantee supporting the case data submitted from the branch offices.  The OIG randomly selected 85 client cases
from the automated system and judgmentally selected 56 client cases from the manual records for detailed review, for a
total sample of 141 client cases.
We performed this audit in accordance with Government Auditing Standards (1994 revision)
established by the Comptroller General of the United States and under authority of the Inspector General Act of 1978,
as amended and Public Law 105-119, incorporating by reference Public Law 104-134, §509(g).
RESULTS OF AUDIT
CASE SERVICE REPORTING
The grantee's 1997 Grant Activity Report included an overstatement of closed cases and an overstatement
of open cases.  The grantee reported 6,618 cases closed during the year and 2,295 remaining open at year-end.  Some
closed cases were reported even though legal services were not provided.  Duplicate cases were also reported.  The audit
disclosed cases for which the work was performed and completed prior to 1997, but reported as closed in 1997.  Some
reported open cases at the end of 1997 should have been closed earlier.
Case Service Reporting Requirements
LSC requires recipients to submit an annual Grant Activity Report summarizing the previous year's legal
services activity wholly or partially supported with LSC funds. The information in the report includes total number of
cases worked on, types of legal issues, number of open and closed cases and the reasons cases were closed.  The report
also includes information on Private Attorney Involvement cases.  The Case Service Reporting Handbook and Grant Activity
Report instructions provide reporting criteria for cases.  Reported cases must be for eligible clients and within the
recipient's priorities.  Eligibility is based on income and asset determinations and must be documented.
LSC Uses of Grant Activity Report
LSC uses recipient case statistical information to support the Corporation's annual budget request and
as a performance measure in the performance plan submitted in response to the Government Performance and Results Act.
The compilation of program-wide data is an integral part of the management oversight process and also allows LSC
management to keep its Board of Directors and the Congress informed of significant program activities and performance.
Automated and Manual Case Management Systems
The grantee's computer-generated 1997 case listing included cases only from the main office in Milwaukee,
representing approximately 60 percent of its total workload.  This data processing system allowed the grantee to store,
retrieve, and analyze information about client cases and the delivery of legal services.  The automated data from the
main office was combined with manual case listings from the two branch offices to produce the Grant Activity Report.
For 1997, the grantee provided the following case information.
Grantee OfficeClosedOpenTotals
Milwaukee Main Office3,6261,7085,334
Kenosha Branch Office1,0541801,234
Madison Branch Office1,8552812,136
Migrant 83126209
Totals6,6182,2958,913
Beginning in January 1998, the grantee implemented Fox Pro Client/Case Management System, an
organization-wide relational database for case management. This database will be used for case management and report
generation, including case statistical reporting.
EXAMINATION OF REPORTED CASES
Closed Cases Overstated
We estimated that the grantee overstated closed cases by 377.  The overstatement of closed case was
attributable to the reporting of: cases where the grantee provided no legal services, cases closed in 1996 but incorrectly
reported in 1997, and duplicate cases.  The following chart shows the estimated number of overstated closed cases by category.
No legal services provided198
Incorrectly reported in 1997119
Duplicate cases60
Total377
Cases Reported as Closed but Legal Services Not Provided
We estimated that 198 cases were reported as closed even though no legal services were provided.
Our sample of closed cases indicated that in 3 percent of the cases no legal services were provided.  Projecting
this error rate to the universe of 6,618 closed cases, we estimated that 198 cases were incorrectly reported as closed
in 1997.  In these instances, cases were opened when individuals applied for assistance.  These individuals were later
determined to be ineligible for assistance, were not accepted as clients and were provided no legal services.  The open
cases for these individuals were closed and improperly reported to LSC.
Incorrectly Closed Cases
The grantee incorrectly reported 119 cases as closed in 1997 that should have been closed in 1996.
The error was isolated to the Madison office.  In the autumn of 1996, the Madison branch office's staff was reduced at
the same time the office was relocating.  These circumstances led to a delay in capturing some 1996 case statistical
data.  As a result, 119 cases remained open even though legal services were no longer being provided.  These cases were
closed and reported in 1997.  In addition, our review of sample closed cases from the Milwaukee and Kenosha offices
showed that one of 106 sample cases was improperly reported as closed in 1997.  The error was insignificant and did not
indicate a systemic problem.
Duplicate Cases
We estimated that the grantee reported 60 duplicate closed cases.  Duplicate cases occurred when two or
more cases were established for a client with the same legal problem.  This estimate is based on the review of a sample
of potential duplicate closed cases from the Milwaukee office.  We identified 101 potential duplicate records in the
Milwaukee office automated system.  Our review of a sample of 27 of these cases determined that 59 percent were
duplicates.  We applied this percentage to the universe of 101 and estimated that 60 closed cases were duplicates.
The primary reason for the incorrect reporting was that cases were closed when clients missed appointments.  Frequently
these same individuals made another appointment for the same legal problem and another case was opened.  This second case
was closed after legal services were provided, which resulted in the duplicate counting.
Open Cases Incorrectly Reported
We estimated, based on a review of 35 sample cases, that the grantee overreported open cases by 321
cases (14 percent).  There were two causes for the incorrect reporting.  Some reported open cases should have been
closed in 1997 or prior years because legal services were no longer being provided.  In addition, some cases were
duplicates, i. e., the same case was reported more than once.
OTHER CASE MANAGEMENT ISSUES
Three internal control problems surfaced during the review.  A few Milwaukee office files could not be
located, some ineligible clients were served, and client eligibility documentation was lacking for a significant number of cases.  Each problem is discussed as follows.
The grantee could not locate files for three of 85 sample cases selected from the Milwaukee office.  All three cases
were closed.  Grantee staff told us that the files had been archived with a records management company and could not be
found.
Legal services were provided to ineligible clients and clients with cases outside the grantee's priorities.   Our
sample of 141 open and closed cases revealed the grantee provided legal services to two clients whom should not have
been assisted. One client's income exceeded LSC limits and one client's case was outside the grantee's priorities.
Asset eligibility documentation was not available for 45 (32 percent) of a sample of 141 cases.  Grantee staff told
us that in some cases applicants were asked about their assets when they applied for assistance.  In other cases, the
grantee relied on asset determinations made by a state government agency.  The staff presented no documentation to
substantiate that these asset eligibility determinations met requirements.
To correct these problems, the grantee needs to improve internal controls over case files and to adopt
procedures that ensure asset eligibility determinations meet LSC requirements and are documented.
CONCLUSIONS
The grantee needs to take action to improve the accuracy of the  case data  reported in its Grant Activity
Report.  Most of the problems, both large and small, were caused by procedural deficiencies that resulted in cases not
being promptly closed, duplicate cases being reported, and the recording and reporting of cases even though no legal
services were provided.  Aside from the one-time problems at the Madison office, the reporting problems were systemic
and need greater management attention. Grantee management should adopt control procedures over the processing of
applicant's request for assistance and case closures to eliminate the systemic problems.  As a final control improvement,
management needs to review the Grant Activity Report for accuracy before it is submitted to LSC.
RECOMMENDATIONS
The OIG recommends that the grantee:
Implement procedures providing for the supervisory review over preparation of the Grant Activity Report.
Implement procedures to preclude the reporting of cases when legal services have not been provided.
Direct managers to periodically review a sample of open and closed cases and determine if their status is correct.
Implement procedures for the preparation and review of case management system reports in client name and problem
code sequence so that duplicate cases may be detected and deleted from the system.
Implement procedures requiring the staff to document that asset eligibility guidelines have been followed in
determining client eligibility.
Implement procedures to ensure that adequate controls are provided over closed case records that are archived.
SUMMARY OF GRANTEE COMMENTS and OIG DECISIONS
Summary of Grantee's Comments
The grantee provided extensive comments that disagreed with the draft report's conclusions and stated
that the report contained "... numerous errors and omissions..." The major focus of the comments was on the finding that
the number of closed cases reported in the 1997 Grant Activity Report was overstated.  The comments asserted that the
number of closed cases was understated and that the audit and 1993 CSR Handbook did not account for all the clients the
grantee served in 1997.  In addition, the grantee's comments discussed the quality of legal work performed by its staff.
OIG Decision
The OIG staff reviewed the 51 page (plus appendices) response to our draft report.  No documentation was
provided to support the assertion that the report had numerous errors and that the conclusions were inaccurate and
unbalanced.   Many of the grantee's comments were not relevant to the audit or the report findings.  The comments
provided considerable detail on some cases that were cited as being erroneous.  We made minor changes and clarifications
in the report based on this information.  These changes are indicated in the specific comments provided below.
The audit did not assess the legal work performed by the program.  Our audit was limited to determining
whether the grantee provided LSC with accurate case statistical data in its 1997 Grant Activity Report.
Grantee's Specific Comments and OIG decisions
Grantee - The OIG did not reduce the total overstatement of closed cases by the number of open cases
that were incorrectly reported.
OIG  - We did not offset closed and open case errors.  To do so would have indicated it was proper
to make errors in closed case counts because they would be offset by the errors in open case counts.  In this situation, both closed and open cases were incorrectly reported.
Grantee - The OIG incorrectly stated that no legal services were provided for some closed cases,
some cases were closed incorrectly, and 4 of 6 sample open cases should have been closed in 1997.
OIG - All sample cases were discussed with the responsible advocates.  Without exception, the
advocates agreed that the cases should not have been reported.  These cases were also discussed with grantee management at the audit exit conference.  The grantee's management did not disagree with the findings nor did they present any additional information on the cases.  The additional information the grantee provided on closed and open case counts resulted in one change to the report.  Based on the new information, we reduced the number of incorrectly reported open cases from 6 to 5 and modified the estimated total open case errors from 390 to 321 cases.
Grantee - The OIG did not discuss an additional 1,597 cases handled by the grantee in 1997.
OIG - The objective of the audit was to assess the accuracy of the 1997 Grant Activity Report
prepared and submitted by the grantee.  The grantee provided lists of cases that supported the report.  We took a
sample of cases from these lists and tested them.  The audit report is based on the results of those tests.  The
purported additional cases were not included in the 1997 Grant Activity Report nor in the lists provided to the OIG.
Therefore, we cannot comment on these additional cases.  However, if these cases were, in fact, reportable cases, then
they indicate that the grantee has a greater reporting problem than our audit found.
Grantee - The OIG failed to take account of the extraordinary circumstances in the Madison Office
in late 1996.
OIG - The draft report (page 6) clearly explained the circumstances that resulted in the incorrect
reporting of the 119 case handled by the Madison office.
Grantee - The OIG erroneously concluded that closing a case when a client missed an initial
appointment and opening a second case when the same client called again resulted in an improper duplicate counting of cases
OIG - The grantee did not provide any additional information on the duplicate cases. The same
client with the same legal problem was counted as two cases.  Clearly this is double counting.  Even if the cases had not
had the same legal problem, the first case should not have been counted because no legal services were provided.
The provision of legal services is a prerequisite to having a reportable case.
Grantee - The OIG omitted recognition of improvements resulting from the grantee's implementation
of the FoxPro client/case management system.
OIG - The draft report (page 5) indicated that implementation of a new computerized case management
system was started in January 1998.  We understood that the system was not yet fully operational at the time of the audit
fieldwork and we did not test the new system.
Grantee - The OIG erroneously characterized 3 missing case files as an internal control problem.
The problem "was due solely to the malfeasance of an external records management company."
OIG - The grantee is responsible for its records and must have controls to protect them from loss.
This responsibility cannot be shifted to the records management company. Three files were lost and the grantee was unaware
of the problem.
Grantee - The OIG erroneously concluded that the grantee provided legal services to 3 clients who
should not have been assisted.
OIG - The cases were discussed with the assigned advocates who agreed with our determinations.
Based on additional information provided by the grantee, we reduced the number of cases where ineligible clients were
provided service from 3 to 2.
Grantee - The OIG erroneously assumed that documentation of assets was required in 1997, and
therefore incorrectly cited 28 cases as examples of improper asset recordation.  The grantee stated that the "staff did
check asset levels in 1997".
OIG - The audit identified case files that did not include documentation showing that asset
eligibility determination had been made.  The grantee asserted that there was no requirement to document asset
determinations in 1997.  That assertion is incorrect. LSC regulation 45 CFR Section 1611.7 was in effect in 1997.
It states "A recipient shall adopt a simple form and procedures to obtain information to determine eligibility ...
and the information shall be preserved ... for audit by the Coroporation."  Based on additional information provided
by the grantee, we reduced the number of undocumented eligibility cases from 50 to 45.
Grantee Comments on Recommendations
The grantee's comments indicated that 5 of the 6 recommendations were being implemented.  Recommendation
4 required the grantee to establish follow up procedures to ensure that clients who missed appointments did, in fact,
withdraw from their cases.  According to the grantee it was not cost effective to implement this recommendation.
OIG Decision
We reevaluated recommendation 4 and changed the recommendation.  The problem with duplicate records
could be solved by reviewing case management reports that are in client name and problem code sequence.  Management
should implement procedures for preparing and reviewing reports for duplicate cases.  The grantee should prepare a
corrective action plan for implementing the recommendations, including dates for completion of corrective action, and
submit it to the OIG within 30 days of the date of this report.
Grantee Comments in Appendix
Appendix 2 contains a brief summary of the grantee's comments.  Normally
the OIG provides the full text of the auditee's comments in an Appendix to the report.  This grantee provided comments
that were too voluminous to include.  However, the full text of the comments (without appendices) is on the OIG website
at www.oig.lsc.gov/reports.
APPENDIX I
LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
Findings:
1.Closed cases were overstated (page 5)Recommendations #1-3
2.Open cases were overstated (page 7)Recommendations #1-3
3.Other case management issues (page7)Recommendations #4-6
Home | Reports | Top |
Table of Contents
Appendix II -- Summary of Grantee Response to Draft Report 9K. Other formats:
PDF 15K | Word97 33K
Grantee Response (full text) 114K. Other formats: PDF 108K
| Word97 235K